           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    SUPPLEMENTAL SECURITY INCOME
           RECIPIENTS WITH
        UNREPORTED VEHICLES

      July 2009   A-02-08-28038




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                             SOCIAL SECURITY
MEMORANDUM

Date:      July 15, 2009                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Supplemental Security Income Recipients with Unreported Vehicles (A-02-08-28308)


           OBJECTIVE
           Our objective was to determine the accuracy of the Social Security Administration’s
           (SSA) determinations of Supplemental Security Income (SSI) applicants/recipients’
           resources related to vehicle ownership.

           BACKGROUND

           SSI is a needs-based program, and SSA considers an applicant’s or recipient’s
           resources when determining eligibility for the program. SSA defines a resource as cash
           or other liquid assets or any real or personal property that an individual (or spouse)
           owns and could convert to cash to be used for his or her support and maintenance.
           Individuals with resources valued at or above $2,000 and couples with resources
           valued at or above $3,000 are not eligible for SSI.

           The Program Operations Manual System (POMS) requires that SSA exclude as a
           resource the value of one vehicle per family regardless of its value. Additional vehicles
           are considered non-liquid resources, and they are generally counted as a resource.
           The value of additional vehicles can be excluded as a resource if they are used as
           property essential to self-support or a plan to achieve self-support or if the
           applicant/recipient made a disposal agreement with SSA. While automobiles are often
           the vehicle in question, other vehicles, such as boats or recreational vehicles, can be
           counted as resources as well. 1




           1
             A vehicle is defined as an automobile, boat and/or airplane. For SSI purposes, automobile means any
           registered or unregistered vehicle used for transportation. Vehicles used for transportation include, but
           are not limited to, cars, trucks, motorcycles, boats and recreational vehicles.
Page 2 - The Commissioner


Resource Reporting and Verification

When determining whether applicants are eligible for SSI based on their resources,
SSA staff generally relies on applicants to accurately report their own and their
spouse’s resources. If SSA staff suspects an individual is providing inaccurate
information, they may ask for additional information from the individual and/or further
investigate the allegations provided. Once receiving SSI, recipients are required to
report events and changes of circumstances that may affect their eligibility and payment
amounts, including changes in resources.

SSA has developed some processes and/or has provided its staff with tools to help
verify the accuracy of resource allegations, including the following.

•   Redeterminations are reviews of recipients/couples’ non-medical eligibility factors
    (such as income, resources, and living arrangements) to determine whether the
    recipients/couples are still eligible for and receiving the correct SSI payment.
    Redeterminations should be completed at least once every 6 years or more
                                            2
    frequently if certain criteria are met.

•   Unreported Bank Account Reviews are conducted by a third-party vendor SSA
    has contracted to assist in retrieving electronic bank data to detect unreported bank
    accounts.

•   National Automobile Dealer’s Association (NADA) E-Valuator assists in
    determining the Current Market Value (CMV) 3 of automobiles owned by applicants
    or recipients. 4




2
 Per POMS SI 02305.010, redeterminations are scheduled based on an error-profiling system that
determines the likelihood of a change in circumstance. For example, redeterminations are completed
more frequently if a change is likely or once every 6 years if a change in circumstance is unlikely.
Redeterminations are not scheduled if the recipient is in a medical institution and limited to a $30 payment
cap, or a Title VIII Special Veteran Benefits case.
3
  The CMV is the average price the automobile’s particular year, make, model and condition will sell for on
the open market in the geographic area involved (see SSA, POMS, SI 01130.200.B.2).
4
   NADA e-Valuator contains and displays values and other data from the NADA Official Used Car Guide
and NADA Official Older Used Car Guide. POMS, SI 01130.200, discusses how to verify the value of cars
as SSI resources. If the NADA e-Valuator trade-in value affects eligibility and the individual disagrees with
it, SSA staff can give him/her the opportunity to rebut it. An example of rebuttal evidence can be a written
appraisal of an automobile's CMV obtained by the individual at his or her own cost from a disinterested
knowledgeable source, such as a used car or truck dealer or an automobile insurance company. If the
automobile is more than 20 years old, but less than 25 years old, SSA staff needs to use the 20-year old
value.
Page 3 - The Commissioner


•
                                                                        5
      LexisNexis Risk Management Solution Database (LexisNexis) helps obtain
      property and resource information for SSI applicants and recipients nationwide.

LexisNexis

To help identify resources that may affect SSI eligibility and payments, SSA provides
field office staff access to the LexisNexis database. LexisNexis is an Internet database
that can be used to obtain property information, including vehicle ownership records.
The vehicle database is limited to vehicle information in 30 States 6 and the District of
Columbia (DC) because of varying State laws regarding access rights to vehicle
ownership records.

SSA policy7 states field office staff can use LexisNexis when there is suspicion of (1) an
undisclosed automobile, boat, or other vehicle or (2) undisclosed real property
ownership, including shared ownership. It can also be used when a transfer of property
for less than the fair market value is suspected.
                                   8
SSA policy further details protocol for LexisNexis database usage. Field office
managers are responsible for determining which employee(s) in their offices will receive
LexisNexis access. Also, they are responsible for registering user identification
numbers and passwords in their offices. Each field office is allowed to have a
maximum of two employees with access to LexisNexis.

SSA has an Interagency Agreement with the Library of Congress to receive commercial
information services through the Federal Library and Information Network, which
provides commercial information services, including LexisNexis. Under this
            9
agreement, SSA employees have access to LexisNexis up to a defined number of
queries.




5
 The LexisNexis Group is a global company that provides information to Government, corporate, legal
and academic markets. Per POMS, SI 01140.105 D.1, information from the LexisNexis database cannot
be used to deny or suspend SSI payments. However, the information can be used to establish a lead,
which should be developed accordingly.
6
 See Appendix B for a list of the 30 States. The database also contains boat registration information for
34 States and real property information for 47 States and DC.
7
    SSA, POMS, SI 01140.105 D.1.
8
    SSA, POMS, SI 01140.105 C.2.a.
9
  SSA is committed to pay for all LexisNexis services under the agreement. The final price is determined
based on SSA’s level of use of the services throughout the year. The services provided under the
agreement include access to Lexis.com, Nexis.com, Risk Management Solutions, Law Enforcement
Solutions, CourtLink, Commerce Clearing House and Accurint service. SSA field office staff has access
to Risk Management Solutions.
Page 4 - The Commissioner


Previous Studies

In 2005, SSA’s Office of Quality Performance conducted a study that found that less
than 20 percent of SSI recipients reported vehicle ownership. Another study published
in the Access Almanac in 2002, Travel Patterns Among Welfare Recipients, reported
that 55 percent of welfare recipients owned an automobile. Recognizing the differences
between these studies’ findings on the rate of vehicle ownership between two
populations in needs-based programs, we examined what resources SSA has to assist
in confirming an individual’s allegations of vehicle ownership.

To meet our objective, we obtained a data extract from one segment of the
                                       10
Supplemental Security Record (SSR). The segment consisted of SSI recipients as of
May 13, 2008 who (1) reported to SSA that they did not own a vehicle; (2) were
receiving monthly payments; (3) were age 18 years or older; and (4) resided in 1 of the
30 States or DC with vehicle information in LexisNexis. The SSR segment contained
94,660 records that met the selection criteria. From this population, we randomly
selected a sample of 275 individuals to determine the accuracy of the recipients’
reporting of vehicle ownership. Specifically, we used LexisNexis to determine whether
there was any indication these individuals owned vehicles. Once we identified
individuals who appeared to own vehicles even though they reported to SSA they did
not, we also reviewed LexisNexis for evidence of other unreported resources and/or
work activity. Refer to Appendix B for further details of our Scope and Methodology.

Based on the evidence we located in LexisNexis, we referred the cases we believed
may have been ineligible for SSI because of resource limitations or work activity to
SSA. We requested that SSA determine whether the prior resource determination was
accurate and the amount of any improper payments assessed because of resource
limitations or work activity.

RESULTS OF REVIEW

SSA’s records regarding SSI recipient vehicle ownership were not always accurate. Of
the 275 sampled SSI recipients, 68 (25 percent) did not report to SSA that they owned
vehicles. In addition, 11 of these 68 individuals exceeded the resource limit for SSI
eligibility when the values of their unreported vehicles were counted as resources,
resulting in improper payments totaling $80,107. Estimating these results to the total
population, approximately 468,140 recipients inaccurately reported their vehicle
ownership to SSA. We also estimate that about 75,720 recipients were improperly paid
approximately $551 million because of inaccuracies in SSA’s records on the recipients’
vehicle ownership. Further, we found that in some instances, SSA staff did not
determine vehicle values through the NADA e-Valuator or other third-party valuation
methods, as required.




10
     One segment of the SSR represents 5 percent of the total population of SSI recipients.
Page 5 - The Commissioner


ACCURACY OF VEHICLE OWNERSHIP REPORTING

Of the 275 recipients we reviewed, 68 (25 percent) inaccurately reported their or their
spouses’ vehicle ownership. In fact, SSA verified that 22 of the 68 recipients who
reported they did not own a vehicle actually owned 2 or more vehicles under their or
their spouse’s names. While recipients are responsible for accurately reporting their
resources and any changes that occur, including resources owned by a spouse, these
individuals did not report any such vehicles to SSA.

Based on SSA’s development of the 68 cases, we determined that 11 of the
68 recipients were improperly paid a total of $80,107 when the values of the
undisclosed vehicles were counted as resources. The values of the unreported
vehicles brought the recipients over the resource limit for SSI eligibility. For example,
one of the recipients owned five vehicles over a 10-year period, which he did not report
to SSA. Once SSA added the value of the vehicles to the value of the resources it was
previously aware of, the recipient had more than $2,000 in resources and therefore was
ineligible for SSI payments. SSA placed 4 of the 11 recipients in a non-payment status
since their resources exceeded SSI limits.

While SSA determined the remaining seven recipients had owned vehicles that caused
them to exceed SSI resource limits, the recipients had disposed of the vehicles and
remained eligible for SSI payments at the time of our review. Also, since the seven
recipients had owned and disposed of the vehicles more than 2 years before our
review, SSA could not recover the improper payments caused by the unreported
vehicles because of administrative finality. Under administrative finality, a previous field
office decision, like a determination of a recipient’s resources, can be reopened or
revised for only a limited time period, generally up to 2 years. 11

SSA could recover $26,846 for 4 of the 11 improperly paid individuals who had
unreported vehicle ownership during the past 2 years. Improper payments totaling
$53,261 cannot be recovered from the remaining seven individuals because they
disposed of their unreported vehicles more than 2 years ago.

Estimating these results to the total population, about 468,140 recipients inaccurately
reported their vehicle ownership, and about 75,720 recipients were improperly paid
approximately $551 million because of inaccurate information in SSA’s records on the
value of their resources.


11
   POMS, SI 04070.015, (also 20 CFR 416.1488) provides guidance on administrative finality.
Additionally, POMS, SI 04070.020.B.1, explains a determination or decision can be reopened and revised
at any time upon a finding of “fraud” or “similar fault.” Criteria to establish “similar fault” are listed as
follows: the change event is material and will create a new or additional overpayment; a wide discrepancy
exists between the new data and the data reported; the SSI recipient knowingly completed an incorrect or
incomplete report, knowingly concealed events or changes, or knowingly neglected to report events or
changes that he/she knew or should have known would affect payments; the event can and will be
verified; the event is clearly attributable to the SSI recipient; and the case does not involve fraud. In
developing these cases, SSA staff did not report any instances of fraud or similar fault.
Page 6 - The Commissioner


Characteristics of Recipients Who Did Not Report Vehicle Ownership

Of the 68 recipients who failed to report their vehicle ownership, 61 (90 percent)
received SSI disability payments, and the remaining 7 (10 percent) received SSI aged
payments. Of the total population of SSI recipients over 17 years old, 81 percent was
                                             12
blind or disabled and 19 percent was aged.

About two-thirds of the 61 disabled recipients was diagnosed with either a mental
disorder or musculoskeletal system and connective tissue disorder, though the
proportion of recipients in each of these disability categories was different than the
overall SSI disability population. The 61 disabled recipients had a lower rate of mental
disorders and a higher rate of musculoskeletal system and connective tissue disorders.
Specifically, 36 percent of the 61 recipients had a mental disorder; nearly 60 percent of
the total SSI disability population had a mental disorder. Twenty-eight percent of the
61 recipients had a musculoskeletal system and connective tissue disorder; 10 percent
of the total SSI population had similar disorders.

                                          Number of              Percent of     Percent of
                                           Disabled               Disabled      Overall SSI
           Disability Category           Recipients             Recipients       Disability
                                         Who Did Not            Who Did Not     Population
                                        Report Vehicle             Report
          Mental                                 22                   36             60

          Musculoskeletal System
                                                 17                   28             10
          and Connective Tissue

          Other                                 22 13                  36            30
                     Total                       61                   100            100

We also found the 68 recipients were younger on average than the overall SSI
population. Of the 68 recipients, 53 (78 percent) were age 18 to 64, with
15 (22 percent) age 65 or older. In comparison, 68 percent of the total SSI population
over the age of 17 was between the ages of 18 and 64, and 32 percent was 65 years
old or older.

We also found the 68 individuals who did not report their vehicle ownership to SSA
were more likely to live in areas of lower population density. The servicing SSA field
offices for 54 (79 percent) of the recipients were located in areas with a population
density of less than 2,000 people per square mile. In fact, half of these recipients lived
in an area with a population density of less than 100 people per square mile.
12
     Our sample included only SSI recipients 18 years old or older.
13
  The diagnoses for 7 of the 22 “Other” cases were categorized as "Diagnosis is Unknown" or “Diagnosis
Established-No Predetermined List Code.” The remaining 15 had disability types other than mental or
musculoskeletal system and connective tissue disabilities.
Page 7 - The Commissioner


Lastly, 40 (59 percent) of the recipients purchased vehicles after they started receiving
SSI payments. Also, most of the 68 recipients who failed to report their vehicle
ownership told SSA they did not possess any other type of resources; 52 (77 percent)
of the recipients reported to SSA they had no resources.

Resource Determinations

SSA staff is not required to note whether LexisNexis was used to assist in resource
                                                                              14
verification. However, we looked for any such indications in SSA’s records. We did
not find indications that SSA staff used LexisNexis to verify the accuracy of vehicle
ownership statements made by SSI recipients either initially or during redetermination
interviews for the 68 recipients who inaccurately reported their vehicle ownership.

It would be difficult for all SSA field office staff to use LexisNexis on every claim or
redetermination. While SSA has an Interagency Agreement to access LexisNexis,
access is limited to no more than two employees in each field office. Also, information
on vehicle registration in LexisNexis is limited to 30 States and DC because of varying
State laws regarding access rights to vehicle ownership records. However, SSA may
be able to obtain vehicle ownership information directly from States that do not currently
have such information in LexisNexis. For example, while vehicle ownership records for
California’s and Virginia’s residents are not included in LexisNexis, these States have
procedures in place that should allow SSA to gain access to this information.

We also determined when SSA last completed a redetermination for each of the
68 recipients. Per SSA policy, 15 redeterminations should be completed at least once
every 6 years. Of the 68 recipients who inaccurately reported vehicle ownership,
                                                     16
17 had not had a redetermination in the last 6 years, which included 3 of the
11 recipients who were improperly paid.




14
  SSA records reviewed included those in the SSR, Modernized Supplemental Security Income Claims
Systems and Claims File Records Management System.
15
     SSA, POMS, SI 02305.010.
16
     SSA decided not to conduct the scheduled 6-year redeterminations due in Fiscal Year 2008.
Page 8 - The Commissioner


Determination of the Current Market Value of Vehicles

Once SSA determines a recipient owns a vehicle, policy provides guidance on how to
                       17
determine the CMV of an automobile using the on-line NADA e-Valuator. Per SSA
policy, field office staff should use the average trade-in value of the vehicle provided by
the NADA e-Valuator or obtain the trade-in value from a disinterested, knowledgeable
source 18 if the trade-in value is unavailable from the site.

Among the cases we asked SSA to review, it appeared that field office staff did not
determine the CMV from the NADA e-Valuator or another third-party source for at least
17 vehicles. For example, in one case, SSA staff accepted the vehicle value alleged by
the recipient as $60, whereas the NADA e-Valuator listed the value as $1,300. In
another case, SSA accepted the recipient’s word of how much he received when he
sold a car ($75) when he reported he no longer owned the vehicle. However, the
recipient did not provide an invoice to show the sale price, and the vehicle’s value in the
NADA e-Valuator was listed as $1,475. The differences in the alleged values of the
vehicles and the values listed on NADA e-Valuator are significant and can place a
recipient over the resource limit.

We also found that some SSA staff used the NADA e-Valuator Rough Trade-In Value 19
in lieu of the Average Trade-In Value, which provides a lower estimated vehicle value.
Lastly, staff used the current default year in the NADA e-Valuator in cases that needed
a resource determination for a prior period. The NADA e-Valuator allows users to
access car guides from previous years to determine the value of a car in the past. By
using the Rough Trade-In Value and the current year’s car guide to determine the value
of a car in the past, SSA staff may have undervalued the vehicles.

Other Resources

When researching the 275 sampled cases in LexisNexis to determine vehicle
ownership, we found other possible unreported resources, income, and/or living
arrangement issues. Also, when SSA developed the cases we referred to it, its staff
found that some of the recipients had unreported resources and/or income issues other
than those related to vehicles. In total, seven recipients had unreported resources,
income, or living arrangements that resulted in $26,578 in improper payments. For
example, in one case, SSA identified an unreported pension fund the value of which

17
     See Footnote 3.
18
  According to POMS, GN 00301.210.B, SSA may purchase certified copies of documentary evidence for
any eligibility requirement under Title XVI if both the following are met: (1) the applicant cannot be
expected to obtain the evidence; and (2) the evidence cannot be obtained without payment of a fee or if
purchase of the evidence is the most economical method of obtaining it.

19
   The policy (POMS, SI 01130.200. I .2) was amended during our review period and now instructs staff
not to use the NADA e-Valuator Rough Trade-In Value or Clean Trade-In Value as the CMV for resource
determinations unless the individual presents clear evidence that the vehicle should be considered in one
of those categories.
Page 9 - The Commissioner


exceeded the SSI resource limit. For another recipient, SSA identified rental income
from an unreported property. This property did not impact the individual’s eligibility for
SSI payments since the loan amount on the property was higher than its current market
value. (These other resource issues will be addressed in future reports.)

CONCLUSION AND RECOMMENDATIONS
SSA’s records on SSI recipients' resources related to vehicle ownership were not
always accurate. Specifically, one in four of the recipients we reviewed owned a vehicle
even though they reported they did not. As a result, some of these recipients were
improperly paid when the value of their unreported vehicles was taken into account.
The recipients with unreported vehicles in our sample were more likely to be disabled,
have a mental or musculoskeletal system and connective tissue disorder, and were
younger on average than the overall SSI population. Also, they were more likely to live
in a community with a lower population density, report no other resources and obtain
their vehicles after becoming eligible for SSI payments.

While SSA has an Interagency Agreement to access LexisNexis in its field offices, SSA
limits the number of staff with access to LexisNexis, and vehicle information within the
database is limited to 30 States 20 and DC because of varying State laws regarding
access rights to vehicle ownership records. While some State laws prevent vehicle
information from being included in LexisNexis, SSA still may be able to obtain vehicle
ownership from these States. For example, while Virginia’s vehicle information is not
included in LexisNexis, it allows Government employees long-term access to the
information once certain forms are submitted to the State.

Additionally, our review showed that once SSA determined a recipient owned a vehicle,
field office staff did not always comply with SSA policy by using the NADA e-Valuator or
another third-party auto valuation service to determine the vehicle’s value.

To help accurately identify the value of applicants and recipients’ vehicle related
resources, we recommend that SSA:

1. Assess the costs/benefits of requiring the use of LexisNexis queries for those SSI
   applicants and recipients determined to be less likely to report vehicle ownership.

2. Assess the costs/benefits of obtaining vehicle registration information directly from
   States which allow access to vehicle ownership records so it can be used to verify
   recipients’ resources during initial applications and redeterminations.

3. Use the vehicle registration information obtained from LexisNexis or directly from the
   States to update the redetermination selection model to ensure recipients less likely
   to report their vehicle ownership are selected more frequently for redeterminations.

20
  See Appendix B for the 30 States for which LexisNexis has vehicle information. The database also
contains boat registration information for 34 States and real property information for 47 States and DC.
Page 10 - The Commissioner


4. Remind staff to follow policy on the use of the NADA e-Valuator or a disinterested,
   knowledgeable source when determining the value of applicants or recipients’
   vehicles.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with all our recommendations. See Appendix D for the text of SSA's
comments.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sample Results, Projections and Estimates
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
CMV          Current Market Value
DC           District of Columbia
LexisNexis   LexisNexis Risk Management Solution Database
NADA         National Automobile Dealer’s Association
POMS         Program Operations Manual System
SSA          Social Security Administration
SSI          Supplemental Security Income
SSR          Supplemental Security Record
                                                                                  Appendix B

Scope and Methodology
To accomplish our objective, we:
•   Reviewed applicable sections of the Social Security Act and other relevant
    legislation, as well as the Social Security Administration’s (SSA) regulations, rules,
    policies and procedures.

•   Obtained a data file of 94,660 individuals receiving Supplemental Security Income
    (SSI) payments who reported no vehicle ownership or disposal agreement (that is,
    ownership of any car, boat, recreational vehicle, etc.) to SSA and resided in the
    30 States 1 and the District of Columbia for which the LexisNexis Risk Management
    Solution Database (LexisNexis) has vehicle information. This population represents
    SSI recipients age 18 and older who received payments as of May 2008.

•   Selected a random sample of 275 recipients to determine vehicle ownership by
    comparing SSI and LexisNexis motor vehicle, boat and aircraft registration
    information. We used both the personal property search and people search function
    in LexisNexis to determine whether SSI applicants and recipients disclosed their
    ownership of such resources. We also reviewed ownership of other countable
    assets for our sampled cases with excess vehicles to further develop their SSI
    eligibility.

•   Determined the recipients’ SSI eligibility by reviewing all the pertinent information in
    LexisNexis, such as the acquisition date and the value of vehicle(s), and
    Modernized Supplemental Security Income Claims Systems claims path in relation
    to other alleged/verified resources. If the value of the second vehicle and/or other
    identified vehicles did not exceed the resource limit of $2,000 ($3,000 for a couple),
    we further determined whether they had any other assets (for example, real
    property), which could make them ineligible. When there was more than one
    automobile, we excluded the one with the higher value when such information was
    available.

•   Used Vehicle Identification Numbers or detailed descriptions of vehicles to
    determine the value of each vehicle identified from LexisNexis vehicle information by
    using the average Trade-In value option in the National Automobile Dealer’s
    Association e-Valuator. (Note: if a vehicle was over 20 years old, but less than
    25 years, we used the value shown for it at 20 years old, as instructed in Program
    Operations Manual System, SI 01130.200.I.2.)

1
 Alabama, Alaska, Colorado, Connecticut, Delaware, Florida, Idaho, Illinois, Kentucky, Louisiana, Maine,
Maryland, Massachusetts, Michigan, Minnesota, Mississippi, Missouri, Montana, Nebraska, Nevada, New
Mexico, New York, North Dakota, Ohio, South Carolina, Tennessee, Texas, Utah, Wisconsin, and
Wyoming.


                                                  B-1
•   Calculated the potential improper payment if excess vehicles and/or other assets
    were not properly accounted previously for/by SSA. We applied the 2-year
    administrative finality rule for reopening a prior determination or decision
    (Program Operations Manual System, SI 04070.010).

•   Identified 78 of the 275 sample recipients who appeared to own (or their spouse
    owned) 1 or more vehicles based on information in LexisNexis. We initially
    concluded that 53 of these 78 appeared to be ineligible for SSI payments because
    of excessive resources based on the value of a previously unreported vehicle and/or
    other resources or potential employment.

•   Requested that SSA’s Office of Operations contact the 53 recipients who appeared
    to have excess resources or income to determine their vehicle ownership and
    whether they were improperly paid. We also asked SSA to provide its own
    calculation of related improper payments if different from our calculations.
    Additionally, for informational purposes, we provided SSA the information for the
    25 recipients who appeared to have inaccurately reported vehicle ownership that did
    not impact their eligibility. SSA staff verified the ownership period for some of these
    25 recipients and provided their findings.

Based on the information we provided SSA, the Agency concluded that 68 recipients
had at least 1 or more vehicles that were previously unreported to SSA. Based on
SSA’s determination, we were able to identify (1) four recipients who were overpaid
during the last 2 years since they became ineligible for SSI payments when the value of
previously unreported vehicles was counted as resources; (2) seven recipients who
owned vehicles causing them to exceed SSI resource limits, but they had disposed of
the vehicles and remained eligible for SSI payments at the time of our review; and
(3) eight recipients who had unreported resources other than vehicles, income or living
arrangements that made them ineligible for SSI payments.

SSA calculated the overpayment amounts for the four recipients who were overpaid
and ineligible for SSI payments. We calculated the improper payment amount for
seven recipients who had owned and disposed of the vehicles more than 2 years
before our review. We used the information SSA staff verified on vehicle ownership
periods during their interviews with these recipients. If the recipients (or spouse) had
owned the vehicles before August 2003, when SSA staff first had access to LexisNexis,
we used that date as when the vehicle ownership began and calculated the improper
payment accordingly. The values of the unreported vehicles brought these recipients
over the resource limit for SSI eligibility in the past, though the improper payments
totaling $53,261 cannot be recovered from these seven individuals because they
disposed of their unreported vehicles more than 2 years ago.

We conducted our audit in the New York Audit Division between September 2008 and
March 2009. We tested the data obtained for our audit and determined them to be
sufficiently reliable to meet our objective. The entities audited were SSA’s field offices
under the Deputy Commissioner for Operations. We conducted this performance audit


                                            B-2
in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




                                         B-3
                                                                                     Appendix C

Sample Results, Projections and Estimates
To meet our objective, we obtained a data extract from one segment of the
Supplemental Security Record (SSR). The segment consisted of Supplemental
Security Income (SSI) recipients as of May 13, 2008 who (1) reported to the Social
Security Administration (SSA) that they did not own a vehicle; (2) were receiving
monthly benefit payments; (3) were age 18 years or older; and (4) resided in 1 of the
30 States or the District of Columbia with vehicle information in the LexisNexis Risk
Management Solution Database. The SSR segment contained 94,660 records that met
the selection criteria. From this population, we randomly selected a sample of
275 individuals to determine the accuracy of the recipients’ reporting of vehicle
ownership.

We found that 68 recipients from the 275 sampled owned vehicles that had not been
reported to SSA. We also found that 11 of the 68 individuals exceeded the resource
limit for SSI eligibility when the values of the unreported vehicles were counted as
resources, resulting in improper payments of $80,107. Estimating these results to the
total population, we estimate that 468,140 recipients inaccurately reported their vehicle
ownership to SSA. We also estimate that 75,720 recipients were improperly paid
approximately $551 million due to inaccuracies within SSA’s records related to vehicle
ownership. The results of our sample and projections are noted below.

Table 1 – Population and Sample Size

                          Description                                       Number of Beneficiaries
       Population Size (Data extract from one segment)                                      94,660
       Sample Size                                                                             275

Table 2 – Number of SSI Recipients with Unreported Vehicles

                               Description                                 Number of Beneficiaries
       Sample Results                                                                           68
       Point Estimate                                                                      23,407
       Projection - Lower Limit                                                            19,397
       Projection - Upper Limit                                                            27,806
       Estimate for Entire SSR 1                                                          468,140
       Note: All statistical projections are at the 90-percent confidence level.




1
    Represents the point estimate multiplied by 20 segments.


                                                        C-1
Table 3 – Number of Improperly paid SSI Recipients

                                  Description                                 Number of Beneficiaries
          Sample Results – Number of Beneficiaries
                                                                                                   11
          Improperly paid
          Point Estimate - Number of Beneficiaries
                                                                                                 3,786
          Improperly paid
          Projection - Lower Limit                                                              2,141
          Projection - Upper Limit                                                              6,181
          Estimate for Entire SSR 2                                                            75,720
          Note: All statistical projections are at the 90-percent confidence level.

Table 4 – SSI Improper Payments Resulting from Unreported Vehicles

                                                                                  Improper Payments
                                   Description                                      Due to Vehicle
                                                                                      Ownership
          Sample Results - Dollars Improperly Paid                                             $80,107
          Point Estimate - Dollars Improperly Paid                                         $27,574,286
          Projection - Lower Limit                                                          $8,405,833
          Projection - Upper Limit                                                         $46,742,739
          Estimate for Entire SSR 3                                                       $551,485,720
          Note: All statistical projections are at the 90-percent confidence level.




2
    Id.
3
    Id.


                                                           C-2
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:       June 30, 2009                                                          Refer To:   S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       James A. Winn       /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, “Supplemental Security Income Recipients
            with Unreported Vehicles” (A-02-08-28038)—INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendations.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“SUPPLEMENTAL SECURITY INCOME RECIPIENTS WITH UNREPORTED
VEHICLES” (A-02-08-28038)

Our responses to your specific recommendations are as follows.

Recommendation 1

Assess the costs/benefits of requiring the use of LexisNexis queries for those SSI applicants and
recipients determined to be less likely to report vehicle ownership.

Comment

We agree. We will determine if using LexisNexis queries for this purpose is feasible.

Recommendation 2

Assess the costs/benefits of obtaining vehicle registration information directly from States which
allow access to vehicle ownership records so it can be used to verify recipients’ resources during
initial applications and redeterminations.

Comment

We agree. We will determine if obtaining vehicle registration information directly from States that
allow access to vehicle ownership records is feasible.

Recommendation 3

Use the vehicle registration information obtained from LexisNexis or directly from the States to
update the redetermination selection model to ensure recipients less likely to report their vehicle
ownership are selected more frequently for redeterminations.

Comment

We agree. Depending on the results from our assessment of recommendations 1 and 2, we will
consider using vehicle registration information obtained from LexisNexis or directly from the
States to update our redetermination selection model.




                                                 D-2
Recommendation 4

Remind staff to follow policy on the use of the National Automobile Dealer’s Association
(NADA) e-Valuator or a disinterested, knowledgeable source when determining the value of
applicants or recipients’ vehicles.

Comment

We agree. We will issue a reminder to staff to follow the policy outlined in POMS SI 01130.200,
including the proper use of the NADA e-Valuator guide, to determine the value of an applicant’s
or recipient’s vehicle(s).




                                              D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Audit Division, (212) 264-5295

   Neha Smith, Acting Audit Manager, (212) 264-0504

Acknowledgments

In addition to those named above:

   James Kim, Program Analyst

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-02-08-28038.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
